No. 20-569
IN THE

Supreme Court of the United States
ELIM ROMANIAN PENTECOSTAL CHURCH and LOGOS BAPTIST MINISTRIES,
Petitioners,

v.
JAY ROBERT PRITZKER, in his official capacity as Governor of the State of Illinois,
Respondent.

_______________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
_______________
AMICUS CURIAE BRIEF OF AMERICAN CENTER FOR LAW AND
JUSTICE IN SUPPORT OF PETITIONER
PROOF OF SERVICE
I, Jay Alan Sekulow, a member of the Bar of this Court and an attorney for amicus,
pursuant to Rule 29.3, hereby certifies that three copies were served upon all parties
required to be served, by First Class Mail from Washington, D.C., to counsel at the
addresses below.
Mathew D. Staver
Counsel of Record
Liberty Counsel
PO Box 540774
Orlando, FL 32854
court@lc.org
407-875-1776

Jane Elinor Notz
Counsel of Record
Office of the Attorney General
State of Illinois
100 West Randolph Street, 12th Floor
Chicago, IL 60601
jnotz@atg.state.ill.us
312-814-5376

Counsel for Petitioner
Counsel for Respondent

/s Jay Alan Sekulow
Jay Alan Sekulow
November 30, 2020

